No.
EN THE SUPREME COURT OF THE UNITED STATES

Sealed Appellant,
Petitioner,
v.
Sealed Appellee,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Sealed Appellant, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks leave
to file the accompanying Petition for Writ of Certiorari to the United States Court of Appeals for the
Fifth Circuit without prepayment of costs and to proceed in forma pauperis. Petitioner was
represented by counsel appointed under the Criminal Justice Act, 18 U.S.C, ยง 3006A(b) and (c), in
the United States District Court for the Northern District of Texas and on appeal to the United States
Court of Appeals for the Fifth Circuit.
Respectfully submitted this the 7th day of August, 2020.

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

/s/ Christopher A. Curtis
Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

